(>'~
~.:::zf-
           DEPARTMENT OF HEALTH & HUMAN SERVICES                                         Office of Inspector General


                                                                                         Region IX
                                                                                         Office of Audit Services
                                                                                                h
                                                                                         90 - i Street, Suite 3-650
              FEB 1 1 2009                                                               San Francisco, CA 94103




           Report Number: A-09-09-00032

           Mr. Bruce Dow
           Chief Executive Officer
           Screen Actors Guild - Producers Health Plan
           3601 West Olive Avenue
           Burbank, California 91505

           Dear Mr. Dow:

           Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
           General (OIG), final report entitled "Review of Retiree Drug Subsidy Plan Sponsor Screen
           Actors Guild - Producers Health Plan for Plan Year Ended December 31, 2006." We will
           forward a copy of this report to the HHS action official noted below.

           Pursuant to the Freedom ofInformation Act, 5 U.S.C. § 552, OIG reports generally are made
           available to the public to the extent that information in the report is not subject to exemptions
           in the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

           If you have any questions or comments about this report, please direct them to the HHS
           action official. Please refer to report number A-09-09-00032 in all correspondence.

                                                         Sincerely,



                                                         Lori A. Ahlstrand
                                                         Regional Inspector General
                                                          for Audit Services


           Enclosure


           HHS Action Official:

           Ms. Nanette Foster Reilly, Consortium Administrator
           Consortium for Financial Management and Fee for Service Operations
           Centers for Medicare & Medicaid Services
           601 East l ih Street, Room 235
           Kansas City, Missouri 64106
Department of Health and Human Services

             OFFICE OF

        INSPECTOR GENERAL





          REVIEW OF

    RETIREE DRUG SUBSIDY

        PLAN SPONSOR

    SCREEN ACTORS GUILD ­

   PRODUCERS HEALTH PLAN

     FOR PLAN YEAR ENDED

      DECEMBER 31, 2006





                    Daniel R. Levinson

                     Inspector General


                      February 2009

                      A-09-09-00032

                    Office ofInspector General
                                      http:// oig.hhs.gov



The mission ofthe Office ofInspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance ofHHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office ofEvaluation and Inspections
The Office of Evaluation and Inspections (OE!) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office ofInvestigations
The Office ofInvestigations (01) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of 01 often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office ofCounsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG's internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY


BACKGROUND


Section 101 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003
(P.L. No. 108-173) established the Retiree Drug Subsidy (RDS) program effective
January 1,2006. Under the program, the Centers for Medicare & Medicaid Services (CMS)
makes subsidy payments to sponsors (employers and unions) of qualified retiree prescription
drug plans for qualifying retirees covered under the plans. A qualifying covered retiree is a
Medicare Part D-eligible individual who is not enrolled in a Part D plan but who is covered by a
qualified retiree prescription drug plan. The subsidy payments for each qualifying covered
retiree generally equal 28 percent of allowable retiree drug costs.

Medicare requires that the sponsor of a qualified retiree prescription drug plan submit an RDS
application to CMS each year. As part of the application process, plan sponsors must submit a
list of qualifying covered retirees. The submitted list should include retiree identification
information, as well as the plan sponsor's coverage effective and termination dates. Plan
sponsors, or their vendors, must accumulate retiree drug costs and prepare and submit cost
reports to CMS before requesting subsidy payments. CMS created the RDS secure Web site as a
secure portal for plan sponsors participating in the subsidy program to submit RDS applications
and requests for payment.

Screen Actors Guild - Producers Health Plan (SAG-PHP) is a self-administered, multiemployer
trust fund that has a primary office in Burbank, California, and offers prescription drug coverage
to its plan participants. SAG-PHP uses a third-party vendor to prepare and submit cost reports to
CMS on SAG-PHP's behalf. For its plan year 2006 application, SAG-PHP received $2,433,070
in plan year 2006 subsidy payments based on reported gross retiree drug costs of approximately
$13.4 million and allowable retiree costs of approximately $8.7 million.

OBJECTIVES

Our objectives were to determine whether SAG-PHP (1) met the requirements to be a plan
sponsor, (2) established controls to ensure that drug subsidy costs were correctly reported, and
(3) established administrative safeguards over retiree data included in the RDS secure Web site.

SUMMARY OF RESULTS

SAG-PHP (1) met the requirements to be a plan sponsor, (2) established controls to ensure that
drug subsidy costs were correctly reported, and (3) established administrative safeguards over
retiree data included in the RDS secure Web site. Therefore, we are not making any
recommendations to SAG-PHP.
                            TABLE OF CONTENTS




INTRODUCTION                                          1


    BACKGROUND                                        1

        Retiree Drug Subsidy                          1

        Plan Sponsor Requirements                     1

        Qualifying Covered Retirees                   1

        Retiree Drug Subsidy Secure Web Site          2

        Screen Actors Guild - Producers Health Plan   2


    OBJECTIVES, SCOPE, AND METHODOLOGY                2

         Objectives                                   2

         Scope                                        3

         Methodology                                  3


RESULTS OF REVIEW                                     4





                                        11
                                                   INTRODUCTION


BACKGROUND

Retiree Drug Subsidy

Section 101 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003
(P.L. No. 108-173) established the Retiree Drug Subsidy (RDS) program effective
January 1,2006. Under the program, the Centers for Medicare & Medicaid Services (CMS)
makes subsidy payments to sponsors (employers and unions) of qualified retiree prescription
drug plans for qualifying retirees covered under the plans. A qualifying covered retiree is a
Medicare Part D-eligible individual who is not enrolled in a Part D plan but who is covered by a
qualified retiree prescription drug plan.

The subsidy payments for each qualifying covered retiree generally equal 28 percent of
allowable retiree drug costs. Allowable retiree drug costs are based on gross retiree costs
between a cost threshold and a cost limit, minus any price concessions such as discounts or
rebates.

Plan Sponsor Requirements

Medicare requires that the sponsor of a qualified retiree prescription drug plan submit an RDS
application to CMS each year. The application must include identifying information for the plan
sponsor, an actuarial attestation that the actuarial value of the retiree prescription drug coverage
under the plan is at least equal to the actuarial value of the defined standard prescription drug
benefit under Medicare Part D, a list of qualifying covered retirees and identifying information,
and a sponsor agreement signed by an authorized representative of the plan sponsor.

Qualifying Covered Retirees

As part of the application process, plan sponsors must submit a list of qualifying covered
retirees. The submitted list should include retiree identification information, as well as the plan
sponsor's coverage effective and termination dates. J To process a retiree file, CMS queries the
Medicare Beneficiary Database and determines whether the individual is a qualifying covered
retiree eligible for the subsidy based on Medicare entitlement. CMS then determines the periods
of time during the plan year when the retiree is eligible for the subsidy. CMS includes the
subsidy effective and termination dates in the retiree response file that it returns to the plan
sponsor.

CMS recommends that plan sponsors submit updated retiree files periodically to reflect (1) new
retirees not reported previously, (2) updates to previously accepted retiree records, (3) deletions
for previously accepted retiree records, and (4) resubmissions. Each time a plan sponsor submits
an updated retiree file, CMS prepares a response file. CMS also sends plan sponsors a


IThe plan sponsor's coverage effective and termination dates represent the dates that the plan sponsor provided the
retiree with coverage under the qualified retiree prescription drug plan.


                                                          1
notification file when an event occurs-such as a retiree's death or enrollment in Medicare
Part D-that may affect a plan sponsor's ability to receive the subsidy for a retiree.

Plan sponsors, or their vendors, must accumulate retiree drug costs and prepare and submit cost
reports to CMS before requesting subsidy payments. Plan sponsors may elect to receive interim
subsidy payments based on costs reported to date. A plan sponsor receiving interim payments is
required to reconcile interim subsidy payments within 15 months after the end of its plan year.
CMS makes any necessary adjustments to interim payments for the plan year when the
reconciliation is completed.

Because plan sponsors submit retiree costs to CMS on an aggregate (rather than an individual
retiree) basis, plan sponsors must carefully manage retiree response and notification files to
ensure that costs are accumulated only for qualifying covered retirees during valid subsidy
periods.

Retiree Drug Subsidy Secure Web Site

CMS, through its contractor ViPS, Inc., created the RDS secure Web site as a secure portal for
plan sponsors participating in the subsidy program to submit RDS applications and requests for
payment. Plan sponsor personnel requiring access to the secure Web site are assigned roles,
including authorized representative, account manager, actuary, and designee. The authorized
representative or account manager can assign designees various duties, including completing
portions of the RDS application, submitting retiree data, and requesting subsidy payments.

Screen Actors Guild - Producers Health Plan

Screen Actors Guild - Producers Health Plan (SAG-PHP) is a self-administered, multiemployer
trust fund that was established on February 1, 1960. SAG-PHP's primary office is in Burbank,
California. SAG-PHP offers comprehensive pension and health benefit programs, including
prescription drug coverage, to its plan participants.

Using information from its medical plan enrollment file, SAG-PHP creates a list ofRDS-eligible
retirees. SAG-PHP's third-party vendor then downloads information from the medical plan
enrollment file to accumulate retiree costs and to prepare and submit cost reports to CMS on
SAG-PHP's behalf. For its plan year 2006 application, SAG-PHP submitted a list of 5,117
retirees and received $2,433,070 in plan year 2006 subsidy payments based on reported gross
retiree drug costs of approximately $13.4 million and allowable retiree costs of approximately
$8.7 million. SAG-PHP reconciled its plan year 2006 subsidy payments on May 6, 2008.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether SAG-PHP (1) met the requirements to be a plan
sponsor, (2) established controls to ensure that drug subsidy costs were correctly reported, and
(3) established administrative safeguards over retiree data included in the RDS secure Web site.



                                                2

Scope

We reviewed SAG-PHP's plan year 2006 RDS application, final retiree list, retiree response and
notification files, and final cost report. We limited our review to determining whether SAG-PHP
reported drug costs for qualifying covered retirees. We did not perform a review to determine
the allowability of the drug costs reported. We reviewed the RDS secure Web site users
associated with SAG-PHP's application for plan year 2006.

Our objectives did not require an understanding or assessment of the complete internal control
system at SAG-PHP. We limited our review of internal controls to obtaining an understanding
of SAG-PHP's process for monitoring and updating its retiree files and coordinating with its
third-party vendor to ensure that costs claimed for subsidy payments represented costs for
qualifying covered retirees.

We performed our fieldwork at SAG-PHP's office in Burbank, California, from June 2008
through January 2009.

Methodology

To accomplish our objectives, we:

   •	 reviewed applicable Federal laws and regulations, Medicare program guidance, and the
      American Academy of Actuaries' (AAA) guidance;

   •	 met with SAG-PHP's actuarial consulting firm and reviewed the actuary's workpapers to
      verify that the actuary had completed and submitted the attestation in accordance with
      CMS and AAA guidance;

   •	 reviewed SAG-PHP's notice of creditable coverage sent to Part D-eligible retirees for the
      period beginning January 1,2006;

   •	 reviewed SAG-PHP's 2006 plan year RDS application to determine whether the

      information provided was complete, accurate, and submitted to CMS by the

      October 31, 2005, deadline and to verify that the application was approved;


   •	 selected a judgmental sample of 50 plan year 2006 retirees for whom SAG-PHP reported
      costs and received subsidy payments;

   •	 reviewed information from the Medicare Beneficiary Database to determine whether the
      sampled retirees were eligible for Medicare and Part D and not enrolled in a Part D
      prescription drug plan;

   •	 reviewed documentation provided by SAG-PHP to determine whether the sampled
      retirees met SAG-PHP's criteria for retiree health coverage and were enrolled in a retiree
      health plan approved for the RDS;



                                                3
    •	 met with SAG-PHP personnel responsible for the RDS process to obtain an
       understanding of the application process and their procedures for submitting retiree files
       to CMS and processing retiree response and notification files received from CMS;

   •	 reviewed SAG-PHP's plan year 2006 enrollment files and response and notification files
      to determine actions that the plan sponsor had taken to remove unqualified retirees from
      the RDS program;

   •	 reviewed the plan year 2006 final cost report submitted by SAG-PHP's vendor to
      determine the total gross drug costs submitted and the total subsidy payments received by
      SAG-PHP;

   •	 reviewed detailed drug costs supporting the plan year 2006 final cost report to determine
      whether SAG-PHP correctly reported gross retiree costs within each qualifying covered
      retiree's valid subsidy period; and

   •	 identified SAG-PHP's secure Web site users for the 2006 plan year's application and
      determined whether the users were assigned and registered in accordance with program
      policies.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                                    RESULTS OF REVIEW

SAG-PHP (1) met the requirements to be a plan sponsor, (2) established controls to ensure that
drug subsidy costs were correctly reported, and (3) established administrative safeguards over
retiree data included in the RDS secure Web site. Therefore, we are not making any
recommendations to SAG-PHP.




                                                4

